No. 19-648
IN THE

$)upreme ~ourt of tbe mlniteb $)tates
CACI PREMIER TECHNOLOGY, INC .,

Petitioner,
V.

SUHAIL NAJIM ABDULLAH AL SHIMARI; SALAH HASAN
NUSAIF JASIM AL-EJAILI; AsA'AD HAMZA HANFOOSH
AL-ZUBA'E,

Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 7th day of January, 2020, I caused three copies of the Reply Brief for
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version of the same to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.
Baher Azmy
CENTER FOR CONSTITUTIONAL RIGHTS

666 Broadway, 7th Floor

New York, NY 10012
(212) 614-6464
bazmy@ccrjustice.org

Counsel for Respondents

